STTPOWER
2352 Demington Dr.
Cleve. Hts. OH 44106
Tel: (216) 302-8320
September 16, 2020

VIA PRIORITY MAIL
Honorable Scott Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Re: McDaniel v. Wilkie No. 20-341
Blanket Consent to Amicus Curiae Flings
Dear Clerk Harris,
In accordance with Rule 37.2(a) of the Rules of the Supreme Court of the
United States, the Petitioner grants blanket consent to the filing of amicus
curiae briefs in support of either party or neither party, prior to the Court's
consideration of the petition for writ of certiorari.
Sincerely,

Natalie McDaniel
S up remeB riefs@sttp ower . corn
cc: Solicitor General of the United States

RECEIVED
SEP 2 3 2020
EE

